September 2009
Report No. EVAL-09-008


Controls over Contracts Related to
Resolution and Receivership Activities
                                                                                                   Executive Summary
                                                                                               Report No. EVAL-09-008
                                                                                                       September 2009

                                           Controls over Contracts Related to Resolution and
                                           Receivership Activities

                                           Results of Evaluation

                                           The FDIC has controls in place to award and manage resolution and
Background and Purpose                     receivership-related contracts, including procurement procedures,
of Evaluation                              minimum standards for contractor fitness and integrity, background
Starting in 2008, the FDIC began           investigations of contractor employees, and FDIC oversight manager
experiencing a significant increase in     (OM) and technical monitor (TM) designations and training.
the number and size of institution
failures as compared to previous           Notwithstanding these efforts, we noted that the FDIC did not always
years. This activity has resulted in a     complete background investigations for contractor personnel, OM and TM
significant increase in the workload       workloads varied and were sometimes challenging, and OMs generally did
for the FDIC’s Division of                 not prepare contract management plans or find them to be useful. We also
Resolutions and Receiverships              identified contract file documentation weaknesses in contracts that we
(DRR) and a corresponding increase         reviewed. DRR’s internal review efforts have identified similar findings.
in the reliance on contractors to          DRR and DOA management have taken action to address these issues.
address failing and failed institutions.
For example, through June 30, 2009,        DRR and DOA have also taken action to mitigate risks associated with a
the FDIC had awarded over                  significant increase in contracting activity, including increasing authorized
$1 billion in contracts, of which
                                           procurement-related staff, creating oversight manager refresher training,
98 percent were DRR-related.
                                           establishing DRR contract support functions in the Dallas Regional Office,
DRR relies on Receivership                 and establishing a corporate-level contracting project management office.
Assistance Contractors (RAC) to
provide a full range of closing            While these actions are positive, FDIC management and personnel
support functions. DRR also hires          involved in the procurement process must remain vigilant to ensure that
firms for other services, including        contractors perform work consistent with contract terms and maintain
financial advisory, asset                  sufficient documentation to preserve a complete history of contract-related
management, and loss share                 decisions and outcomes. Additionally, the success of the FDIC’s contract
agreement oversight.                       administration and oversight management is dependent on maintaining
                                           sufficient resources to address contracting administration needs and
The Division of Administration             ensuring individuals are fully-trained and understand their responsibilities.
(DOA) provides contracting support         Because DRR and DOA have taken or are planning to take steps to
to the FDIC and plans, solicits, and       address issues we identified during our review, we are not making
manages FDIC contracts through             recommendations.
completion.
                                           Although this report did not contain recommendations, management was
The objective of the evaluation was        given the opportunity to comment. Management elected not to provide
to identify and evaluate controls in       written comments.
place to address the risks presented
by a significant increase in resolution
and receivership-related contracting
activity.


To view the full report, go to
www.fdicig.gov/2009reports.asp
                                TABLE OF CONTENTS


EVALUATION OBJECTIVE AND APPROACH                                               1

BACKGROUND                                                                      2

EVALUATION RESULTS                                                              4
    Established Controls                                                        4
           FDIC’s Minimum Fitness and Integrity Standards                        5
           Background Investigations                                             7
           Oversight Management                                                 10
    Actions Taken to Mitigate Risks Associated with
    Increased Contracting Activity                                              14
           Increased Authorized Staff                                           14
           Created an OM Refresher Training Course                              15
           Established DRR Contract Support Functions                           15
           Established Corporate-level Contracts Project Management Office      15

CONCLUSION AND MATTERS FOR CONTINUED ATTENTION                                  16

APPENDIX I: Objective, Scope, and Methodology                                   17
APPENDIX II: Global E-mail – Guidelines for Interacting with FDIC Contractors   19

TABLES
    Table 1: FDIC’s Policy and Procedures Related to Minimum Fitness            5
             and Integrity Standards
    Table 2: Conflict of Interest Waiver Activity                                7
    Table 3: FDIC’s Policy and Procedures Related to Contractor Security         8
    Table 4: FDIC’s Policy and Procedures Related to Oversight Management       10
    Table 5: OIG Analysis of OM Workload                                        12
    Table 6: Contracts Sampled by OIG                                           18

FIGURES
    Figure 1: DRR Contracting Activity                                          2
    Figure 2: Functional Areas of RAC Contractors                               3
                       ACRONYMS IN THE REPORT


APM      Acquisition Policy Manual
ASB      Acquisition Services Branch
CEFile   Contract Electronic File
CLU      Contracting Law Unit
CMP      Contract Management Plan
CU       Corporate University
DOA      Division of Administration
DRR      Division of Resolutions and Receiverships
GAO      Government Accountability Office
MSB      Management Services Branch
NFE      New Financial Environment
OERM     Office of Enterprise Risk Management
OIG      Office of Inspector General
OM       Oversight Manager
ORE      Owned Real Estate
PGI      Procedures, Guidance, and Information
RAC      Receivership Assistance Contract
RBOA     Receivership Basic Ordering Agreement
RFP      Request for Proposal
RTC      Resolution Trust Corporation
SEPS     Security and Emergency Preparedness Section
TM       Technical Monitor
Federal Deposit Insurance Corporation                                                                 Office of Evaluations
3501 Fairfax Drive, Arlington, Virginia 22226                                                  Office of Inspector General



DATE:                                           September 30, 2009

MEMORANDUM TO:                                  Mitchell L. Glassman, Director
                                                Division of Resolutions and Receiverships

                                                Arleas Upton Kea, Director
                                                Division of Administration


                                                [Signed]
FROM:                                           E. Marshall Gentry
                                                Acting Assistant Inspector General for Evaluations

SUBJECT:                                        Controls over Contracts Related to Resolution and Receivership
                                                Activities (Report No. EVAL-09-008)


This report presents the results of our evaluation of controls over contracts related to resolution
and receivership activities. In 2008, the FDIC began experiencing a significant increase in the
number and size of institution failures as compared to previous years, which has resulted in a
significant increase in the workload for the FDIC’s Division of Resolutions and Receiverships
(DRR) and a corresponding increase in the reliance on contractors to address failing and failed
institutions. The Government Accountability Office (GAO) has reported that an increased
reliance on contractors can increase the risk of fraud, waste, and abuse absent effective controls
and vigilant oversight.

EVALUATION OBJECTIVE AND APPROACH
The objective of the evaluation was to identify and evaluate controls in place to address the risks
presented by a significant increase in resolution and receivership-related contracting activity. To
address this objective, we:

•     Reviewed prior Office of Inspector (OIG) and GAO reports to identify areas of potential risk
      associated with contracting activity. Although we recognize that the organizations and
      circumstances differ, we also reviewed Resolution Trust Corporation (RTC) OIG semiannual
      reports to the Congress to identify contracting issues that existed during the last period of
      significant resolution activity;

•     Reviewed controls established and actions being taken or planned by the FDIC to mitigate
      risks, including internal resource considerations;

•     Evaluated the implementation of controls associated with contract administration and
      oversight management by reviewing a judgmental sample of five DRR contracts.


                                                                 1
For the purpose of this evaluation, we focused on risks associated after contracts were awarded
because at the time we were planning our work, DRR was relying on contracts that were already
in place. Accordingly, we focused on potential risks associated with fitness and integrity
requirements, the background investigation process, and the FDIC’s contract administration and
oversight management function. Initially, the scope of our review was to include Legal Division
contracting activity, but we decided to focus the review on DRR contracting activity, given the
level of such activity in DRR. We performed our evaluation between December 2008 and June
2009 in accordance with the Quality Standards for Inspections. Details on our objective, scope,
and methodology are provided in Appendix I.

BACKGROUND
During 2008, 25 FDIC-insured institutions with assets of $372 billion failed, 1 the largest number
of failures since 1993 when 41 institutions with combined assets of $3.8 billion failed (excluding
thrifts resolved by the RTC). Through September 2009, 95 FDIC-insured institutions with
combined assets of $104.4 billion have failed. To address the increased workload, DRR’s use of
contractor resources has increased. This approach is consistent with the Corporation’s
established business model for resolutions and receivership management, which relies on
contractors and staff on time-limited appointments to handle major upticks in workload.

The Division of Administration (DOA), Acquisition Services Branch (ASB), provides
contracting support to all FDIC divisions except the Legal Division.2 The acquisition team
includes the contracting officer, contracting specialist, and other support staff in ASB; the
responsible officials in the program office, including the oversight manager (OM) and technical
monitor (TM); the Legal Division Contracting Law Unit (CLU); and, as appropriate, the
supporting officials and staff in the Office of Diversity and Economic Opportunity, and ASB
Policy and Operations Staff.

In 2008, FDIC contract awards totaled $651.8
million as compared to $345.4 million in                          Figure 1: DRR Contracting Activity
contracts in 2007, which represented an increase                        DRR Contract Awards 2007-2009
of approximately 89 percent. As of                                    $1,200
June 30, 2009, the FDIC had already awarded                           $1,000
over $1 billion in contracts. Figure 1 illustrates                      $800
the increase in DRR contracting since 2007,                            $600
which accounts for 98 percent of the                                   $400
Corporation’s contracting activity during 2009.                        $200
                                                                          $0
According to information provided by ASB,                                      2007    2008     2009
DRR awarded approximately $395.3 million or
61 percent of the total contracts for the                                      DRR Contracts in Millions
Corporation in 2008. This was compared to
                                                                  Source: DOA.
$37.9 million, or 11 percent of the total contracts               Note: 2009 data as of June 30, 2009.
for the Corporation in 2007.

1
    This amount includes Washington Mutual Bank which had assets of $307 billion at the time of failure.
2
    The Legal Division has its own process for awarding and managing Legal Services Agreements.


                                                          2
With regard to DRR contracting, the FDIC is using Receivership Basic Ordering Agreements
(RBOAs) to expedite the acquisition of goods and services in support of failing or failed
financial institutions. An RBOA is similar to a Basic Ordering Agreement in all respects except
it is limited to awards in support of DRR and is not assigned a monetary value or a contract
ceiling amount. Instead, dollar value ceiling controls are established at the task order level,
allowing DRR the ability to formulate requirements and resultant cost estimates as needs become
better defined.

One of the principal RBOAs that DRR relies upon, the Receivership Assistance Contract (RAC),
includes the full range of closing support functions as indicated in Figure 2. 3 In addition, DRR
has other contracts in the following areas:

•   Owned Real Estate (ORE) Management and                     Figure 2: Functional Areas of RAC
    Marketing Services                                         Contractors
•   National Valuation (Appraisal) Services
•   E-Banking Advisory/Support Services
•   Credit Card Consulting                                       •   Facilities          • Financial Closing
•   Shared Loss Basic Ordering Agreement                         •   Asset Management      Process
•   Temporary Employment Services                                •   Claims              • Personnel
•   Secured Web Site                                             •   Investigations        Administration
                                                                 •   Settlement          • Franchise
•   Business Information Systems                                 •   Employee Benefit      Marketing
•   Due Diligence Services                                           Plans               • Branch
•   Environmental Due Diligence/Site Assessment                                            Management
    Services                                                                             • Trust
•   Financial Advisory Services
                                                               Source: DRR Resolutions Contracting
•   Loan Servicing
•   Web-Based Marketing
•   Call Center activities

On June 11, 2009, ASB officials told us that DRR also has RBOA requests for proposals out for
bid on the following:

•   Financial Advisor for Securities Sales
•   Financial Advisor for Loan Sales (replaces existing contract which is expiring)
•   Financial Advisor for Mortgage Servicing Rights
•   Due Diligence (replaces existing contract which is expiring)
•   Loss Share Agreement Oversight
•   Loan Servicing Oversight
•   Title
•   Assignments
•   Trustee
•   Custodian
•   Subsidiary Management (replaces existing contract which is expiring)
•   ORE (to add additional firms)

3
 Under RAC I, the FDIC had engaged four contractors. In January 2009, the FDIC completed a second solicitation
for four additional contractors and refers to this RBOA as RAC II.


                                                      3
EVALUATION RESULTS

Established Controls

In August 2008, ASB issued revised policies and procedures for the acquisition of goods and
services. The policies and procedures in the Acquisition Policy Manual (APM), 4 and the
accompanying Procedures, Guidance, and Information (PGI) apply to all procurement actions
awarded in the corporate, receivership, or conservatorship capacity. The revised manual and
guidelines were not done in response to the increase in DRR contracting activities; rather, the
issuance of the revised manual was the result of a multi-year DOA effort to update the policies
and guidelines to reflect ASB’s current policies and procedures, procurement-related systems,
and ASB organizational changes. 5

The FDIC’s revised policies include:

•   an introduction to the RBOA,
•   a discussion of special issues surrounding receivership contracting, and
•   a description of the OM and TM nomination and appointment process.

In addition, emergency and expedited contracting procedures 6 have also been developed for
meeting the contracting needs related to financial institution failures when insufficient time is
available to follow established contracting procedures. The APM states that DRR and ASB rely
on advanced planning to reduce the need for expedited or emergency contracting procedures to
award contracts, and expedited and emergency procedures are not to be used when there is
sufficient time to follow established contracting procedures. The APM further states that in
order to obtain the goods and services needed to support DRR efforts in relation to the
anticipated closing of an institution, Contracting Officers must use existing contracts to the
maximum extent possible.

As related to our objectives, the APM and PGI establish controls designed to ensure contractors
meet fitness and integrity standards and receive required background investigations
commensurate with risk designation. In addition, the APM and PGI provide a framework for
managing and overseeing the contractor’s performance. As discussed further below, the APM
and PGI establish policies and procedures, and define roles and responsibilities of the acquisition
team related to these areas.

A GAO report entitled, Framework for Assessing the Acquisition Function at Federal Agencies, 7
states that clear and current procedures help to ensure that management’s directives and

4
  Circular 3700.16, FDIC APM, dated August 22, 2008.
5
  An OIG report entitled, FDIC’s Contract Administration, Report No. 06-026, dated September 2006, included a
recommendation regarding the completion of the policy update.
6
  These expedited procedures focus on providing optimum contracting support for DRR’s critical mission, while
using competition to award contracts to the extent possible. Emergency procedures should be used when time
constraints do not allow for use of expedited or normal contracting procedures.
7
  GAO-05-218G, dated September 2005.


                                                       4
intentions are carried out. Policies and processes embody the basic principles that govern the
way an agency performs the acquisition function. Ideally, policies and processes clearly define
the roles and responsibilities of agency staff, empower people across the agency to work together
effectively to procure desired goods and services, and establish expectations for stakeholders to
strategically plan acquisitions and proactively manage the acquisition process. To be effective,
policies and processes must be accompanied by controls and incentives to ensure they are
translated into practice. Policies and processes that do not address these objectives contribute to
missed opportunities to achieve savings, reduce administration burdens, and improve acquisition
outcomes.

FDIC’s Minimum Fitness and Integrity Standards

The APM sets policy and minimum standards of contractor integrity and fitness that must be
followed. The FDIC does not contract for services with anyone who has committed an act
deemed to be a disqualifying condition. The APM specifically does not allow the FDIC to enter
into, or continue contracts with individuals or organizations that present an unmitigated conflict
of interest. If a conflict of interest exists, it precludes a contractor from performing the contract
unless the conflict is waived by the FDIC or the contractor eliminates it.

A conflict of interest can be either individual or organizational. Frequent conflicts arise when a
personal, business, or financial interest of a contractor or its employee or subcontractor is such
that the contractor’s judgment and loyalty in performing services for the FDIC might be
compromised by concerns for pursuit of its own interest. Other conditions that create a conflict
of interest include (1) involvement in litigation adverse to the FDIC as a party or representative
of a party; (2) offering to buy an asset from the FDIC for which services were performed in the
3 years prior to the offer, unless provided for in the contract for services; or (3) engaging in an
activity that would cause the FDIC to question the integrity of the services a contractor has
performed, is performing, or offers to perform. Table 1 summarizes the FDIC’s policies and
procedures related to fitness and integrity designed to mitigate associated risk.

Table 1: FDIC’s Policy and Procedures Related to Minimum Fitness and Integrity Standards
   Potential Risk Area                      FDIC Policy                                Procedures
Contractor does not meet         The FDIC expects all contractors and     •   Contractor submits completed FDIC
minimum fitness and integrity    subcontractors to perform using the          Integrity and Fitness Representations
or FDIC eligibility standards.   highest ethical standards, reflecting        and Certifications.
                                 the integrity necessary to support and   •   Contracting Officer is responsible for
                                 retain public trust and confidence in        reviewing the integrity and fitness
                                 the acquisition process. The ethical         representations and certifications
                                 standards to which the FDIC holds its        submitted to identify any issues
                                 contractors and subcontractors are           related to eligibility.
                                 delineated in 12 CFR §366.




                                                        5
Table 1: FDIC’s Policy and Procedures Related to Minimum Fitness and Integrity Standards
(Continued)
  Potential Risk Area                    FDIC Policy                                 Procedures
                              The FDIC does not contract for            •   Contracting Officer refers any
                              services with anyone who has                  eligibility issues to CLU for review.
                              committed an act deemed to be a           •   CLU reviews conflicts of interest
                              disqualifying condition. The                  raised by the representations and
                              disqualifying conditions are set out in       certifications. CLU issues a written
                              the Federal Deposit Insurance Act at          decision of its determination.
                              12 USC §1822(f)(4) and are restated       •   CLU also prepares the cases for
                              in the regulations at 12 CFR §366.3.          eligibility determination, waiver of
                              They are:                                     conflicts of interest, appeals from
                                                                            final decisions, and other documents
                              1.   Conviction of a felony;                  for the Corporation’s Ethics
                              2.   Removal from or being                    Committee.
                                   prohibited from participation in     •   The delegated authority to waive a
                                   the affairs of an insured                conflict of interest, if a contractor
                                   depository institution as a result       requests a waiver, rests with the
                                   of a federal banking agency final        Corporation’s Ethics Committee and
                                   enforcement action;                      the Assistant General Counsel of the
                              3.   Demonstration of a pattern or            Corporate and Legal Operations
                                   practice of defalcation or               Section of the Corporate Operations
                                   embezzlement on financial                Branch of the Legal Division.
                                   obligations to insured depository    •   DOA’s Security and Emergency
                                   institutions; or                         Preparedness Section (SEPS)
                              4.   Causing a substantial loss to a          conducts background checks on
                                   federal deposit insurance fund.          contractors, subcontractors, and
                                                                            contractor personnel at the request of
                                                                            the Contracting Officer and OM in
                                                                            accordance with Circular 1610.2.
                                                                        •   During the term of the contract, the
                                                                            contractor must immediately notify
                                                                            the FDIC if any of the information
                                                                            submitted was incorrect at the time of
                                                                            submission, or has subsequently
                                                                            become incorrect.
                                                                        •   Contractors with disqualifying
                                                                            conditions that arise prior to or after
                                                                            award are required to notify the FDIC
                                                                            in writing within 10 calendar days.
                                                                            There are no waivers for
                                                                            disqualifying conditions.
Source: FDIC’s APM and PGI.

The Corporation’s Conflict Committee reviews conflicts for contracts awarded by ASB. This
committee is made up of seven members that include representatives from various divisions and
offices, including DOA, DRR, and a representative from the Legal Division who chairs this
committee. Table 2 below shows the number of conflicts reviewed by the Corporation’s Conflict
Committee for years 2007, 2008, and 2009.




                                                      6
Table 2: Conflict of Interest Waiver Activity

                             Corporation Conflict Committee

                        Number of               Number of Waiver Requests
   Year            Conflicts Reviewed                    Denied
   2007                      5                             2
   2008                      7                             2
  2009*                      0                             0
Source: Legal Division.
* This information is as of March 17, 2009.

Aside from completing the FDIC Integrity and Fitness Representations and Certifications form
during the solicitation phase, contractors have a responsibility to report conflicts that may arise
after the contract is awarded. For instance, a DRR contractor that was hired by the FDIC to
perform work related to a failed institution wanted to represent a potential buyer of assets of the
closed bank. Accordingly, the contractor submitted a conflicts waiver request. The Conflicts
Committee determined that the day-to-day management and operation of the bank represented a
conflict for the contractor to also represent a potential buyer of bank assets. In addition,
contractor employees attended various strategic meetings on how the institution assets might be
marketed. Thus, the waiver was denied and the contractor was not allowed to represent the
potential buyer of bank assets.

In addition to its policy and procedures, and related training to reinforce its policy, DOA and the
Legal Division also send periodic reminders to employees and contractors to advise them of their
respective ethical responsibilities. For example, in April 2009, DOA and the Legal Division sent
a global email message intended to remind employees of certain ethical and contractual
obligations that FDIC employees must keep in mind in dealing with contractors and contractor
representatives. A copy of the global email is included in Appendix 2. Such periodic reminders
coupled with coverage in OM training courses serve to reinforce the FDIC’s policy related to
ethics.

Background Investigations

We also reviewed whether background investigations 8 had been completed as required for the
contracts in our sample. As discussed later in this section, background investigations were not
initiated for DRR contract employees in all cases. If background investigations are not
conducted on contract employees, the risk increases that someone with a criminal record or
questionable credit history may be hired to work for the FDIC. This can result in embarrassment
to the Corporation or a loss of funds or assets.




8
  A background investigation is a generic term that describes the process SEPS completes on contractors and
contractor personnel to ensure they meet minimum security and fitness standards set forth by the FDIC. These may
include Federal Bureau of Investigation fingerprint criminal records checks, searches of various on-line data bases,
and credit reports. It also includes various background investigations conducted by the U.S. Office of Personnel
Management for the FDIC.


                                                         7
Significance of Background Investigations

Effective background investigations are just as important as physical security and emergency preparedness.
We (FDIC) can spend a million dollars on a security system to protect our people, but if we let the bad guys
in the front door by hiring one of them, we will have defeated the entire purpose of that security system. A
strong background investigation program ensures that your co-worker is the type of person you want to have
next to you.

Assistant Director, Security and Emergency Preparedness, DOA
FDIC News, February 2009


As indicated in Table 3 below, Circular 1610.2, Security Policy and Procedures for FDIC
Contractors and Subcontractors, dated August 1, 2003, establishes the security policy and
procedures for contractors and subcontractors to do business with the FDIC. It is the policy of
the FDIC to provide a safe working environment for all its personnel, protect and secure FDIC
assets, and ensure that all contractors who provide services to the FDIC meet minimum security
and integrity and fitness standards dictated by the FDIC and its regulatory requirements.
DOA is in the process of revising this circular in part to clarify applicability to DRR contracting.

Table 3: FDIC’s Policy and Procedures Related to Contractor Security
   Potential Risk Area                      FDIC Policy                                Procedures
Contract employees who           The policy applies to all contracts      •   The Program Office is responsible for
perform work and handle          awarded, including the following:            establishing the risk level for
sensitive information do not     (1) all contracts for services greater       contracts or contractors as part of the
meet the FDIC’s minimum          than $100,000, (2) contracts at any          planning phase for future
security requirements.           amount when contractor employees             solicitations.
                                 will have access to FDIC facilities or   •   A unit within SEPS reviews the risk
                                 network/systems, or (3) any contract         level designation.
                                 at the discretion of the FDIC.           •   Pre-award: The Contracting Officer
                                                                              is responsible for including
                                 This policy shall not apply to               appropriate background forms in
                                 intermittent contractors who access          solicitations.
                                 FDIC facilities on an infrequent and     •   All investigations will generally be
                                 generally unscheduled basis.                 completed before contract award.
                                                                              However, if an award is urgent, it
                                                                              may be made contingent upon the
                                                                              outcome of the investigation. The
                                                                              OM shall closely monitor the
                                                                              contractor’s performance if a
                                                                              contingent award is made, and the
                                                                              Contracting Officer will ensure that
                                                                              all investigations are completed as
                                                                              soon as possible following the award.
                                                                          •   Post-award: No later than 5 days
                                                                              after the contract award, the
                                                                              contractor will provide the
                                                                              Contracting Officer with a list of all
                                                                              contract personnel working on the
                                                                              contract.




                                                         8
Table 3: FDIC’s Policy and Procedures Related to Contractor Security (Continued)
    Potential Risk Area                            FDIC Policy                                      Procedures
                                                                                    •    The Contracting Officer will furnish
                                                                                         the required information to SEPS,
                                                                                         and SEPS will provide the required
                                                                                         forms to contractor personnel.
                                                                                    •    Contractor personnel shall complete
                                                                                         electronic fingerprint and credit
                                                                                         check applications and will not be
                                                                                         permitted to begin work until the
                                                                                         results of the fingerprint reviews are
                                                                                         completed.
                                                                                    •    Upon receipt of the results of the
                                                                                         background investigations, SEPS will
                                                                                         notify the OM and Contracting
                                                                                         Officer.
Source: FDIC Circular 1610.2.

The existing circular, dated August 1, 2003, provides for some discretion with respect to DRR
contracts. Specifically, Circular 1610.2 states

          No background investigations or fingerprint checks shall be required when a receivership
          is created, except when a receivership is of a long-term nature, in which case all
          contractor personnel employed thereafter shall comply with the terms and conditions for
          contractor personnel set forth in the RFP and the contract.

The existing circular does not define “long-term nature.” This leaves the matter open to
interpretation and could potentially result in the policy being inconsistently applied. For
instance, one of the contracts we sampled awarded out of headquarters had 20 contractor
employees that were deployed to do work without undergoing a background investigation. At
the time of our fieldwork, the contractor had completed the tasks related to this contract, and the
contract was in the close-out process. For this task order, background investigations were
completed for the contractor’s principals as part of the pre-award process. 9 During the pre-award
phase in May 2007, SEPS reported that:

          Checks completed did not review any information that would preclude the contractor or
          individual(s) from obtaining a contract or contract work, respectively, with the FDIC. All
          contractor and subcontractor employees working on the contract shall complete electronic
          fingerprints and will not be permitted to begin work until the results of the fingerprint
          reviews are completed.

When this particular task order was awarded in May 2008, the Contracting Officer did not
initiate action to process background investigations for contract personnel actually performing
work on the task assignment because he did not believe that a background investigation was
required. Specifically, he thought that because this task assignment related to a receivership,


9
 An AutoTrack background was conducted on seven employees identified in the task order. An AutoTrack is a limited criminal
check that is done on an individual for a "region" of the United States only. In this situation, AutoTrack results did not reveal any
criminal activity for any of the seven employees in the specific region it checked.



                                                                 9
background investigations were not required under Circular 1610.2 beyond the background
investigations that were done on the contractor and the five principals.

In addition to the contract discussed above, two contracts in our sample were RAC contracts.
During our fieldwork, in discussions with SEPS and DRR Dallas officials, we learned that
86 RAC I contract employees that were doing work for the FDIC had not had background
investigations. Since that time, we understand that DRR officials in the Dallas Regional Office
have worked with SEPS to ensure necessary investigations were completed. DRR management
officials stated it was their intent for contract personnel to receive background investigations
commensurate with their risk-level designation. DRR has taken steps to coordinate with DOA
SEPS to ensure that DRR contract employees meet minimum security requirements. Also, DRR
officials stated that RAC II contract employees will not be deployed to perform work until those
individuals are cleared by SEPS. DRR and DOA are working together to track background
investigation submissions and clearances for both RAC I and RAC II contract employees.
Circular 1620.2 is currently being revised, in part, to clarify the applicability of its provisions to
DRR contracts, and we plan to provide comments on the draft circular to FDIC officials
outlining our view that the policy should apply to DRR contractors unless the DRR Director
determines that an exception is warranted.

Oversight Management

Oversight management is the management of the technical performance requirements of the
contract and is primarily the responsibility of the OM. Oversight management ensures that the
contractor delivers the required goods or performs the work according to the delivery schedule in
the contract and includes monitoring of funds expenditure in relation to the contract ceiling. The
Program Office is responsible for ensuring that adequate resources are available for monitoring
contractor performance. For the contracts we sampled, DRR had assigned an OM and TMs to
oversee the work on specific task assignments. The number of TMs assigned varied based on
DRR’s assessment of workload associated with a contract. In addition, as discussed later in the
report, DRR has established a group in the Dallas Regional Office to assist in the oversight
management of RAC contractors. Table 4 summarizes the FDIC’s policy and procedures related
to oversight management.

Table 4: FDIC’s Policy and Procedures Related to Oversight Management
  Potential Risk Area            FDIC Policy                     Procedures
Contractors perform work that   All procurement actions require some    •   The Contracting Officer and the OM
does not meet contract          level of administrative management          must develop a Contract
requirements.                   as well as performance monitoring           Management Plan (CMP) for all
                                and management (oversight                   contracts and task orders for services
                                management) by the Contracting              having a total estimated value of
                                Officer and the Program Office. The         $1,000,000 and greater.
                                extent varies based upon many           •   The Contracting Officer files a signed
                                factors, including contract type, the       copy of the CMP in the official
                                complexity of the requirement, and          contract file.
                                the dollar amount of the contract
                                action.




                                                      10
Table 4: FDIC’s Policy and Procedures Related to Oversight Management (Continued)
  Potential Risk Area            FDIC Policy                     Procedures
                                                               •   The Contracting Officer appoints an
                                                                   OM (and TM if required) to monitor
                                                                   contract performance for all contracts
                                                                   over $100,000, or other contracts
                                                                   where appropriate.
                                                               •   The OM monitors the contractor’s
                                                                   performance of the contract and acts
                                                                   as a technical liaison between the
                                                                   FDIC and the contractor and ensures
                                                                   technical compliance with the
                                                                   contract by all parties.
                                                               •   Contracting Officers must verify that
                                                                   the OM and TM have completed the
                                                                   2-day in-class OM Training course.
                                                                   If it is necessary to appoint an OM
                                                                   and TM before completion of the
                                                                   2-day course, they may be appointed
                                                                   after successfully completing the
                                                                   FDIC Web-based OM training
                                                                   course, and being scheduled for the
                                                                   2-day course.

Source: FDIC’s APM & PGI.

As discussed in Table 4, to be appointed as an OM or TM, the individual must attend a 2-day
Oversight Management Training Course, which is conducted quarterly through the FDIC’s
Corporate University (CU) and complete a Web-based Oversight Management Training course.
These courses are designed to cover the procurement process -- acquisition planning, award,
contract administration, and closeout. All of the OMs and TMs assigned to the contracts that we
reviewed completed the required training. However, documentation related to the completion of
the course was missing for one employee who had taken the course. Further, one TM took the
training in 1999 but neither the APM nor the PGI outlines how often training is required. The
FDIC’s CU is responsible for maintaining the official list of the names of all FDIC employees
that have completed the training. DOA also maintains a list of all class attendees for the training
in their records to ensure OMs and TMs have met this requirement. We identified discrepancies
with the training list maintained by CU and the one maintained by DOA during our review.
Officials from both offices, CU and DOA, worked together to update their lists so that both
offices have training lists that are accurate and complete.

Responsibilities of an OM and TM are covered in the training course and are also outlined in the
Oversight Manager Appointment Memorandum and the Technical Monitor Appointment
Memorandum, which OMs and TMs are required to sign at the time they are appointed. Our
evaluation focused on some key responsibilities:

   •   Read and understand contract requirements.
   •   Develop and document oversight plan.
   •   Ensure completion of security access and background investigations with fingerprinting
       prior to work start date.


                                                11
     •   Provide technical oversight and direction.
     •   Ensure performance is in accordance with the Statement of Work and the contract
         standards.
     •   Identify and resolve performance issues expeditiously.
     •   Review personnel changes for adequacy.
     •   Monitor budget by ensuring the contractor spending rate is on target and expenditures are
         within the contract ceiling.
     •   Maintain the FDIC’s Contract Electronic File (CEFile) 10 and ensure files are complete
         and accurate.
     •   Evaluate and document contractor performance.
     •   Inspect and accept deliverables.
     •   Review and approve invoices.

OMs and TMs we interviewed indicated that they understood contract requirements and were
working together to monitor contractor performance and review contractors’ invoices. However,
some of the OMs and TMs acknowledged workload was a challenge. Table 5 summarizes
information about the OM workload related to the contracts we sampled. Given the critical role
of OMs and TMs, DRR needs to remain mindful about an individual’s capacity to effectively
carry out assigned responsibilities.

Table 5: OIG Analysis of OM Workload
            Type of                   Number of           OMs             TMs
           Contract                  Task Orders*        Assigned       Assigned                  Other
      Business Information               100                 1              2
            Services
       Financial Advisory                   1                 1              1        OM was also TM for
            Services                                                                  another contract.
     Receivership Assistance                14                1              1        OM was also OM for
           Contract I                                                                 another DRR contract.
     Receivership Assistance                16                1              3        OM was also OM for
           Contract II                                                                another DRR contract.
     Temporary Employment                   21                1              1        OM was also OM for
            Services                                                                  another contract.
Source: OIG discussions with OMs and TMs.
*Note: The number of task orders an individual OM can oversee depends on a number of factors including: the
nature of the task, level of TM support, and the stage of work being done under the task order (i.e., some OMs told
us that some of the task orders included above were still active but most of the work was complete and required less
oversight at that point).

Although OMs and TMs were actively involved in overseeing the work performed, we found
some instances where policies and procedures were not being followed. As discussed later, our
findings were consistent with issues raised in DRR’s internal review reports. Specifically, we
found:


10
  CEFile is a utility that automates the official contract file through the use of Documentum and the FDIC Digital
Library. Contracting Officers, OMs, and TMs must ensure the contract file is maintained in CEfile and is current,
accurate, and complete throughout the life of the contract.


                                                        12
•      CMPs were generally not prepared and not viewed by OMs as needed. A CMP was only
       prepared for one of the five contracts we reviewed. According to the FDIC’s APM, the CMP
       is an important tool to ensure the OM and Contracting Officer have defined the level of
       oversight required. Specifically, the OM, together with the Contracting Officer, are
       responsible for determining the level of oversight that is necessary to ensure the contractor
       makes satisfactory progress toward successful completion of the contract. To assist in
       performing oversight activities for services, the OM should work with the Contracting
       Officer to develop the CMP. Several OMs we interviewed did not view the CMP as a useful
       tool, and, accordingly did not prepare one.

•      Contract documentation was not always placed in the CEFile as required. Specifically, we
       found only 5 OM and TM appointment letters in the CEFile for the 13 OMs and TMs that
       were assigned to contracts reviewed (38 percent). In addition, the CMP that was prepared
       was not placed in the file until after we met with the OM. According to the FDIC’s APM,
       documentation in CEFile must provide a complete history of all procurement-related actions
       and the basis for informed decisions at each step in the acquisition and oversight
       management process. Prior OIG reports have identified issues related to the completeness of
       documentation in the CEFile. We recognize that DRR and DOA have emphasized the
       importance of such documentation in formal training and through other means. While we
       have not evaluated the underlying root cause of this problem, OMs we interviewed indicated
       that it is difficult to keep up with the documentation requirements because the electronic
       system is slow and not user-friendly. One OM suggested that it might be beneficial to have
       administrative assistance to keep up with the document requirements to allow OMs more
       time to focus on overseeing the work of the contractor.

The results of our work were consistent with recent reviews completed by DRR’s Office of
Internal Review. Specifically, DRR has completed two internal reviews that focused on DRR’s
contract oversight management process. The first review focused on the Dallas Field Operations
Branch, and the follow-up review was expanded to include the Washington Office. 11 The
objectives of the review were to: (1) verify that DRR received deliverables according to the
appropriate provisions of the contracts; (2) confirm that payments for contract services were
made according to the proper and correct terms; and (3) determine whether contracts were closed
out properly.

The results of the first review found that the contract oversight management in DRR was
performing in a less than adequate manner. Specifically, certain procedures and practices were
not being performed as required, such as (1) maintaining OM files electronically in CEFile,
(2) documenting contractor performance reviews, and (3) using oversight manager tools such as
OM checklists and OM invoice review checklists. In addition, OMs were not using New
Financial Environment (NFE) reports to monitor and manage contracts against approved levels. 12
According to the internal review report, OMs were generally reviewing invoices and did
maintain various types of hardcopy files. DRR management developed a corrective action plan
to address issues identified. As discussed below, one of the principal actions taken was the
development of an OM refresher trainer course.

11
     IR Review No. 2008-004, Review of DRR Contracting Process.
12
     NFE is the FDIC’s financial management system.


                                                      13
In the follow-up report, 13 the Office of Internal Review found that OMs actively monitored
contractor performance and ensured that services and deliverables provided were acceptable,
OMs’ level of attention was appropriate given the nature of the services performed, and OMs
approved invoices according to the terms of the contract. Further, DRR’s Office of Internal
Review noted marked improvement in the overall contract oversight management process in the
Dallas Field Office Branch since the prior review; however, exceptions were found related to
documentation of the CMP and OM and TM appointment letters. Moreover, there was no
evidence that site visitations had been conducted, and contractor performance evaluations were
not documented as required. Consistent with DRR Internal Review practice, management will
provide a corrective action plan to address the issues identified.

In addition to internal reviews conducted by DRR, DOA’s Management Services Branch (MSB)
is currently conducting an internal study to evaluate whether acquisition specialists are using
CEFile as intended and required. This study/review is the first of a series of periodic reviews
that will be conducted by MSB at ASB’s request. The review will focus on essential contracting
documentation maintained in CEFile for all phases of the contracting process, including pre-
solicitation, solicitation, evaluation, selection, award and modification, administration, and
closeout. As appropriate, MSB plans to identify systemic trends and exceptions that may
warrant follow-up corrective action(s).

Actions Taken to Mitigate Risks Associated with Increased Contracting Activity

Increased Authorized Staff

As part of the corporate planning process, divisions and offices assess their workload needs
based on an analysis of existing and projected workload. The 2009 Corporate Operating Budget
provided for a significant increase in authorized staffing in DRR and the Legal Division to
address the Corporation’s elevated resolutions and receivership management workload. DRR’s
increased use of contracts also affects resource needs of ASB and SEPS.

To that end, DOA is hiring additional contract specialists in both in the Washington Office and
the Dallas Regional Office. Specifically, there are six Contract Specialists in the Dallas Regional
Office and six in the Washington Office. In addition, according to ASB officials, there is a job
posting for three additional contract specialists for the Dallas Regional Office. Further, ASB
officials stated that they are currently evaluating the number of Contract Specialists that the
FDIC will need to handle the increase in the number of contract awards based upon its current
activity. In evaluating staffing needs, government-wide or ASB-specific metrics do not exist for
evaluating the number of contracting officers and contract specialists needed to handle the
volume of activity. ASB officials indicated that staffing needs would be evaluated periodically.
In addition, SEPS anticipates having a total of 17 security management specialists in the
Washington Office and 9 in the Dallas Regional Office to manage the increase in the number of
background investigations that are required due the number of contracts being awarded.




13
     IR Review No. 2009-001, Review of DRR Contracting Process.


                                                      14
Created an OM Refresher Training Course

To address issues in the DRR Office of Internal Review’s first report on the contracting
oversight process, DRR, in conjunction with DOA, developed a refresher course that was
provided to all DRR OMs and TMs in the Dallas, Texas, and Irvine, California, offices. This
course was created to specifically address deficiencies noted in the report as well as review OM
and TM roles and responsibilities. For 2009, this refresher training course is scheduled to be
provided eight times in Dallas and six times in Irvine, and the two divisions anticipate training
approximately 252 OMs and TMs. Several of the OMs and TMs we interviewed had taken this
refresher training and generally had positive comments to make about the course. Providing
refresher training for DRR OMs and TMs during a time when the FDIC is increasing its
contracting activity should help reinforce policy and promote consistency.

Established DRR Contract Support Functions

DRR recently established two groups in the Dallas Regional Office to (1) perform oversight
management of RAC contractors and (2) assist in the various aspects of the solicitation and
award process.

• The Contract Oversight Management Group was established in the third quarter of 2008 to
  perform the contract oversight function on RAC and payroll contracts awarded by the FDIC.
  Within the group, there are two sections consisting of section chiefs, 12 OMs, and 4
  technicians. Staffing for one section is nearly complete, and DRR is working to fill vacancies
  related to the second section.

• The Contracts Support Group was established in August 2008 to assist in the contracting
  effort, specifically, case writing for RAC and payroll contracts, technical evaluation panel
  participation, statement of work preparation, obtaining board approval for contracts over
  $20 million, and assisting with special projects related to contracting activities. One of the
  goals of this group is to perform contract quality assurance; however, this function has not yet
  started. Currently, there are six employees in this group, and five additional positions have
  been announced. DRR has also established a Contract Support Unit in the West Coast
  Temporary Satellite Office and plans to set up a similar unit in the new East Coast Temporary
  Satellite Office.

Established Corporate-level Contracts Project Management Office

In addition to efforts ongoing within DOA and DRR, on a broader-level, the FDIC is establishing
various project management offices (PMOs), including a Contracting PMO, to help manage the
establishment of new programs and expansion of existing program activities, such as contracting
to address current workload issues. The purpose of this Contracting PMO is to provide accurate
and timely information to FDIC executive management on the effectiveness of the FDIC’s
internal controls and business processes regarding contracting, identify and report on significant
risks, develop mitigation plans for significant risks, and provide resource impact updates. The
Director, OERM, will serve as the executive sponsor of this PMO, which includes individuals




                                                15
from DOA, Division of Finance, DRR, and the Legal Division. OERM has also initiated a
program to conduct quarterly invoice reviews.

CONCLUSION AND MATTERS FOR CONTINUED ATTENTION
Collectively, the established controls and all of the steps being taken are positive and provide
evidence of management’s attention to monitor and mitigate risks associated with the significant
increase in contracting activity that has occurred since 2007 and is expected to continue for the
foreseeable future. However, FDIC management and those involved in the process must remain
vigilant to ensure that contractors perform work consistent with the contract terms and contract
documentation is kept up-to-date to ensure there is a complete history of contract-related
decisions and outcomes. Additionally, the success of the FDIC’s contract administration and
oversight management is dependent on maintaining sufficient resources to address contracting
administration needs and ensuring individuals are fully trained and understand their
responsibilities. Because DRR and DOA have taken or are planning to take steps to address
issues we identified during our review, we are not making any recommendations. However, to
mitigate risks associated with the surge in contracting activity going forward, management
should:

•   Ensure that policies remain current and reflect contracting needs as they may evolve. For
    instance, DOA may determine that its policies with regard to CMP need to be modified to
    provide a more useful mechanism for contract oversight planning. Additionally, the results
    of DOA’s MSB study of CEFile documentation may result in suggestions that impact policy
    that will need to be captured to ensure process improvements are readily made.
•   Ensure that contractors comply with minimum ethical standards and appropriate security
    requirements by following through on efforts to ensure background investigations are
    appropriately initiated. Given the sensitive nature of information that some contractors
    handle, the FDIC needs to ensure that contractor personnel meet minimum security
    requirements before they are allowed to begin work.
•   Continue to ensure that staff involved in the contracting process, especially program office
    personnel, complete necessary training and understand the importance of their role in
    administering contracts.
•   Continue to conduct periodic internal reviews focused on contract oversight in order to
    readily identify issues and take corrective action before issues become widespread.
•   Continue to periodically evaluate staffing needs to ensure DOA, the Legal Division, and
    DRR have the resources necessary to effectively carry out contracting policies and
    procedures, monitor compliance, and oversee the work performed by the contractors.
•   Sustain management attention on contracting activity. The Contracting PMO and OERM
    invoice review program should play a pivotal role in assessing risks and monitoring the
    effectiveness of controls on a continuing basis.

Moreover, although we did not evaluate controls related to the solicitation and award of
contracts, the FDIC needs to remain vigilant in implementing controls associated with those
processes to in order to mitigate the risk that procedures -- including those established for
expedited or emergency situations -- are unnecessarily bypassed for the sake of expediency.




                                                16
                                                                                      Appendix I


                  OBJECTIVE, SCOPE, AND METHODOLOGY
The objective of the evaluation was to identify and evaluate controls in place to address the risks
presented by a significant increase in resolution and receivership-related contracting activity.
For the purpose of this evaluation, we focused on post-contract award risks because at the time
we were planning our work, DRR was relying on contracts that were already in place.
Accordingly, we focused on potential risks associated with fitness and integrity requirements, the
background investigation process, and the FDIC’s oversight management function. Initially, the
scope of our review was to include Legal Division contracting activity, but we decided to focus
the review on DRR contracting activity due to the extent and materiality of DRR-related
contracting. To address our objective we:

•   Reviewed prior OIG reports and GAO reports to identify areas of potential risk associated
    with contracting activity. Although we recognize that the organizations and circumstances
    differ, we also reviewed RTC OIG semiannual reports to identify contracting issues that
    existed during the last period of significant resolution activity.

•   Reviewed the GAO report entitled, Framework for Assessing the Acquisition Function at
    Federal Agencies, in order to help us assess the FDIC’s contract administration efforts. GAO
    developed this framework to enable high-level, qualitative assessments of the strengths and
    weaknesses of the acquisitions function at federal agencies.

•   Reviewed relevant FDIC policies and procedures, including:

           o Circular 3700.16, FDIC APM, dated August 22, 2008.
           o Circular 1610.2, Security Policy and Procedures for FDIC Contractors and
             Subcontractors, dated August 1, 2003.

•   Interviewed DRR and DOA officials in both Washington, DC, and Dallas, Texas, involved in
    awarding contracts and overseeing DRR contractors to understand their respective roles,
    workload, and actions being taken or planned by the FDIC to mitigate risks associated with
    the increase in contracting activity. We also interviewed officials in OERM and the Legal
    Division.

•   Reviewed DRR Internal Review No. 2008-004 entitled, Review of DRR Contracting Process,
    dated October 23, 2008 and the response to that report, DRR Contracting Process Corrective
    Action Plan, dated November 26, 2008. We also reviewed DRR Internal Review No. 2009-
    001, Review of DRR Contracting Process dated June 1, 2009.

•   Reviewed requirements of the FDIC Conflicts Committee, chaired by a Legal Division,
    official and specific conflicts that were identified during 2008.

•   Judgmentally selected five DRR contracts from a Purchase Order Summary Report (as
    summarized in Table 6) in order to evaluate the implementation of controls related to fitness
    and integrity standards, background investigations, and oversight management. Specifically,




                                                17
                                                                                 Appendix I

   in addition to discussions with OMs and TMs about their workload and approach for
   overseeing contracts, we determined whether:

          o Background investigations had been initiated when required.
          o OMs and TMs assigned to oversee these contracts had completed required
            training.
          o The CEFile included key documents such as the OM/TM appointment letters and
            the CMP.

                     Table 6: Contracts Sampled by OIG
                      Sample No.                RBOA
                            1        Business Information Services
                            2         Financial Advisory Services
                            3           Receivership Assistance
                                           Contract (RAC I)
                            4           Receivership Assistance
                                          Contract (RAC II)
                            5           Temporary Employment
                                                Services
                      Source: Purchase Order Summary Report for 2008.



We performed our evaluation between December 2008 and June 2009 in accordance with the
Quality Standards for Inspections.




                                               18
                                           Appendix II


                  GLOBAL E-MAIL –
GUIDELINES FOR INTERACTING WITH FDIC CONTRACTORS




                       19
